                 Report on Audit of Direct and Indirect Costs
                     for Contractor’s Fiscal Year 2003 –
                                 Company 6

                                     March 2005

                      Reference Number: 2005-1C-058




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            March 29, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Audit of Direct and Indirect Costs for Contractor’s
                              Fiscal Year 2003 – Company 6 (Audit #20051C0215)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s
       December 9, 2003, certified revised final indirect cost rate proposal and related books
       and records for the reimbursement of Fiscal Year 2003 incurred costs. The purpose of
       the examination was to determine the allowability and allocability of direct and indirect
       costs and to recommend Contracting Officer-determined indirect cost rates for the
       period February 1, 2002, through January 31, 2003. The proposed rates apply primarily
       to the contractor’s flexibly priced contracts.
       The DCAA examination of the proposal disclosed questioned costs in various indirect
       pools. According to the DCAA, the unallowable amount is subject to the level one
       penalty in accordance with the provisions of Federal Acquisition Regulation 42.709.
       Additionally, the DCAA identified questioned fringe costs applicable to direct labor.
       The DCAA qualified its audit report because the results of the assist audits for the
       subcontract costs had not been received. The audit may disclose questioned costs.
       The DCAA opined that the contractor’s proposed indirect rates, subject to the
       qualification above, are not acceptable. Also, claimed direct costs, subject to the
       qualification, are not acceptable. However, direct costs not questioned are provisionally
       approved pending final acceptance.
                                           2

The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
